<html>
<title> - U.S. MARINE CORPS AND U.S. NAVY RESET REQUIREMENTS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




                         [H.A.S.C. No. 110-17]







           U.S. MARINE CORPS AND U.S. NAVY RESET REQUIREMENTS

                               __________

                             JOINT HEARING

                               BEFORE THE

             SEAPOWER AND EXPEDITIONARY FORCES SUBCOMMITTEE

                          meeting jointly with

                         READINESS SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                           FEBRUARY 13, 2007




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                  U.S. GOVERNMENT PRINTING OFFICE
44-210                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office  Internet: bookstore.gov Phone: toll free (866) 512-1800 DC area
(202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








             SEAPOWER AND EXPEDITIONARY FORCES SUBCOMMITTEE

                   GENE TAYLOR, Mississippi, Chairman
NEIL ABERCROMBIE, Hawaii             ROSCOE G. BARTLETT, Maryland
JAMES R. LANGEVIN, Rhode Island      KEN CALVERT, California
RICK LARSEN, Washington              TERRY EVERETT, Alabama
MADELEINE Z. BORDALLO, Guam          JO ANN DAVIS, Virginia
BRAD ELLSWORTH, Indiana              J. RANDY FORBES, Virginia
JOE COURTNEY, Connecticut            JOE WILSON, South Carolina
JOE SESTAK, Pennsylvania
               Jesse Tolleson, Professional Staff Member
                 John Wason, Professional Staff Member
                    Jason Hagadorn, Staff Assistant

                                 ------                                

                         READINESS SUBCOMMITTEE

                   SOLOMON P. ORTIZ, Texas, Chairman
GENE TAYLOR, Mississippi             JO ANN DAVIS, Virginia
SILVESTRE REYES, Texas               WALTER B. JONES, North Carolina
LORETTA SANCHEZ, California          J. RANDY FORBES, Virginia
ROBERT A. BRADY, Pennsylvania        MIKE ROGERS, Alabama
JIM MARSHALL, Georgia                JOHN M. McHUGH, New York
MADELEINE Z. BORDALLO, Guam          HOWARD P. ``BUCK'' McKEON, 
MARK UDALL, Colorado                     California
DAN BOREN, Oklahoma                  ROBIN HAYES, North Carolina
NANCY BOYDA, Kansas                  FRANK A. LoBIONDO, New Jersey
CAROL SHEA-PORTER, New Hampshire     TOM COLE, Oklahoma
JOE COURTNEY, Connecticut            ROB BISHOP, Utah
DAVID LOEBSACK, Iowa                 CANDICE S. MILLER, Michigan
GABRIELLE GIFFORDS, Arizona          TRENT FRANKS, Arizona
KATHY CASTOR, Florida                CATHY McMORRIS RODGERS, Washington
               Paul Arcangeli, Professional Staff Member
                Lynn Williams, Professional Staff Member
     


                       C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2007

                                                                   Page

Hearing:

Tuesday, February 13, 2007, U.S. Marine Corps and U.S. Navy Reset 
  Requirements...................................................     1

Appendix:

Tuesday, February 13, 2007.......................................    27
                              ----------                              

                       TUESDAY, FEBRUARY 13, 2007


           U.S. MARINE CORPS AND U.S. NAVY RESET REQUIREMENTS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Bartlett, Hon. Roscoe G., a Representative from Maryland, Ranking 
  Member, Seapower and Expeditionary Forces Subcommittee.........     3
Forbes, Hon. J. Randy, a Representative from Virginia, Readiness 
  Subcommittee...................................................     3
Ortiz, Hon. Solomon P., a Representative from Texas, Chairman, 
  Readiness Subcommittee.........................................     1
Taylor, Hon. Gene, a Representative from Mississippi, Chairman, 
  Seapower and Expeditionary Forces Subcommittee.................     2

                               WITNESSES

Gardner, Lt. Gen. Emerson N., Jr., USMC, Deputy Commandant for 
  Programs and Resources, U.S. Marine Corps......................     4
Greenert, Vice Adm. Jonathan W., USN, Deputy Chief of Naval 
  Operations for Integration of Capabilities and Resources, U.S. 
  Navy...........................................................     6

                                APPENDIX

Prepared Statements:

    Gardner, Lt. Gen. Emerson N., Jr.............................    34
    Greenert, Vice Adm. Jonathan W...............................    41
    Ortiz, Hon. Solomon P........................................    31
    Taylor, Hon. Gene............................................    33

Documents Submitted for the Record:

    [There were no Documents submitted.]

Questions and Answers Submitted for the Record:

    [There were no Questions submitted.]

 
          U.S. MARINE CORPS AND U.S. NAVY RESET REQUIREMENTS

                              ----------                              

        House of Representatives, Committee on Armed 
            Services, Seapower and Expeditionary Forces 
            Subcommittee, Meeting Jointly with Readiness 
            Subcommittee, Washington, DC, Tuesday, February 
            13, 2007.

    The subcommittees met, pursuant to call, at 3:00 p.m., in 
room 2118, Rayburn House Office Building, Hon. Solomon Ortiz 
(chairman of the Subcommittee on Readiness) presiding.

 OPENING STATEMENT OF HON. SOLOMON P. ORTIZ, A REPRESENTATIVE 
          FROM TEXAS, CHAIRMAN, READINESS SUBCOMMITTEE

    Mr. Ortiz. This hearing will come to order.
    I thank our distinguished witnesses for appearing before 
these subcommittees today. We appreciate all the Marine Corps 
and Navy are doing to try to keep our Marines and sailors 
equipped for combat.
    Today the Readiness and Seapower subcommittees will hear 
about the reset programs of the Marine Corps and the Navy's 
Seabees and Explosive Ordnance Disposal (EOD) teams.
    Reset, for those that are civilians among us, means what it 
would take to fix and resupply the Marine Corps and Navy so 
they are ready to do their job and do their battles. Since 
November 2001, operations in Afghanistan, then in Iraq, have 
taken a significant toll on the Marine Corps' and Navy's 
equipment.
    According to the Government Accountability Office (GAO), as 
much as 40 percent of the Marine Corps' ground equipment is 
deployed to Iraq and Afghanistan or at depots waiting to be 
repaired and returned to the fight. Some Seabee units, which 
are Naval construction forces, are reporting equipment usage 
rates 43 times the peacetime usage rate. These factors, along 
with battle losses and industrial base constraints, are 
reducing the overall equipment readiness of the Marine Corps 
and the Navy's Seabees and EOD teams.
    To fix this, the Department of the Navy has implemented the 
reset strategy to repair, recapitalize and replace damaged and 
destroyed equipment. The Marine Corps and Navy must accomplish 
this program efficiently in order to quickly restore the full 
equipment readiness of their forces.
    This committee understands the need for a successful reset. 
To that end, we authorized $6.6 billion for Marine Corps reset 
in fiscal year 2007, fully satisfying all reset requirements 
requested by the Marine Corps, including some carried over from 
the previous year.
    It is vital that the Marine Corps and Navy move as quickly 
as possible to quickly re-equip units with new and repaired 
equipment for combat. I hope our witnesses will discuss how the 
troop escalation in Iraq will affect reset in both dollars and 
time and what measures are being taken to mitigate these 
effects. We also would like to understand how Reserve component 
equipment payback will be figured into the services' reset 
strategies.
    We all understand how quickly you execute reset, actual 
repair and replacement, not just how quickly you pay for it, 
will determine how quickly the Marine Corps and Navy will be 
whole again and fully prepared for any challenge.
    I look forward to hearing your testimony, but before we 
hear our witnesses' testimony, I would like to ask my good 
friend from Mississippi if he has any opening remarks he would 
like to make.
    And I yield to my good friend, Gene Taylor.
    [The prepared statement of Mr. Ortiz can be found in the 
Appendix on page 31.]

     STATEMENT OF HON. GENE TAYLOR, A REPRESENTATIVE FROM 
   MISSISSIPPI, CHAIRMAN, SEAPOWER AND EXPEDITIONARY FORCES 
                          SUBCOMMITTEE

    Mr. Taylor. Thank you, Mr. Chairman.
    I want to thank our witnesses for being here.
    I have to confess that like a lot of other members of this 
committee, I am less than convinced that the Administration has 
shot straight with us as far as the true cost of this war. And 
the last people I want to suffer as a result of this would be 
the Marines and the sailors that require the proper equipment 
to be replaced as it is being used up or destroyed in Iraq and 
Afghanistan.
    So I am pleased that our witnesses are here today.
    Mr. Chairman, I thank you very much for calling this 
hearing.
    But above all, I would hope that what we are told today for 
those things that are foreseeable, for those things that have 
already occurred, will be actually what the Navy and Marine 
Corps need.
    And as advances are made in technologies, and I point more 
specifically to the mine resistant ambush protected (MRAP) 
vehicle to follow on to the High Mobility Multipurpose Wheeled 
Vehicle (HMMWV), a vehicle that will be less likely to sustain 
the injuries and less likely for the occupants to die in the 
event of an ambush, that to the greatest extent possible those 
programs be fielded in a timely manner.
    In this instance, timeliness does not have to equate with 
cost control. I think it is the most important thing we can do 
is get those vehicles into theater, set a precedent that the 
Army will follow in short order, get it done to the greatest 
extent that we can in a cost effective manner, but the most 
important thing is to get those vehicles fielded and get them 
quickly.
    So, General, I would hope that you would tell us what 
progress is being made toward that goal of having 4,000 
vehicles in your inventory by the first of January.
    Again, thank you very much for calling this hearing, Mr. 
Chairman.
    [The prepared statement of Mr. Taylor can be found in the 
Appendix on page 33.]
    Mr. Ortiz. Thank you so much.
    The ranking member is a little ill, under the weather, but 
we have Mr. Forbes who has a statement to read.
    Go ahead.

   STATEMENT OF HON. J. RANDY FORBES, A REPRESENTATIVE FROM 
                VIRGINIA, READINESS SUBCOMMITTEE

    Mr. Forbes. Thank you, Mr. Chairman.
    Mr. Chairman, I am very pleased that the Readiness and 
Seapower subcommittees are coming together today to examine the 
very important issue of Marine Corps and Navy reset 
requirements.
    We often think of reset as a depot-level repair activity 
that is funded through operations and maintenance accounts. 
However, particularly with the Marine Corps' approach, the 
reset of our forces are highly dependent on procurement funds 
as well. It is critical that our two committees continue to 
work together to ensure that we get a full understand of the 
issue, and so I am pleased that we are having this hearing 
today.
    Availability of equipment and its combat capabilities 
continue to be concerns as we examine the readiness trends of 
Marine Corps and Navy ground and aviation elements.
    As we all know, the high operational tempo and harsh 
conditions of Iraq and Afghanistan place a great deal of stress 
on equipment. The requirement to reset this equipment is 
critical to maintaining the ability to respond to challenges 
around the world. The effective and efficient reset of this 
equipment ensures that our Marines and sailors have the 
equipment they need when they need it.
    Despite over $10 billion in appropriations for reset 
activity, the Marine Corps has indicated that they require an 
additional $4.4 billion for equipment reset in the coming year. 
It is also likely that depot maintenance requirements will 
continue for years beyond the operations in Iraq and 
Afghanistan.
    In addition to funding requirements, rest takes quite a 
balancing act and proper establishment of priorities. You can't 
send a piece of equipment to the depot for repair if it is 
needed in the hands of a warfighter.
    With these unambiguous challenges before us, I am looking 
forward to hearing from General Gardner and Admiral Greenert on 
their plans to address the Navy and Marine Corps reset 
requirements and challenges.
    Thank you, Mr. Chairman. I yield back the balance of my 
time.
    Mr. Ortiz. The chair now recognizes the distinguished 
gentleman from Maryland, Mr. Bartlett, the ranking member for 
the Seapower Subcommittee, for any opening remarks that he 
might have.

  STATEMENT OF HON. ROSCOE G. BARTLETT, A REPRESENTATIVE FROM 
  MARYLAND, RANKING MEMBER, SEAPOWER AND EXPEDITIONARY FORCES 
                          SUBCOMMITTEE

    Mr. Bartlett. Thank you, Mr. Chairman. I will be brief so 
that we can proceed to today's testimony.
    First, I would like to thank our witnesses for being here. 
We are very fortunate to have each of you serving our country.
    Second, as many of you know, U.S. military equipment usage 
in Iraq and Afghanistan is estimated to be two to six times 
peacetime usage rate, depending on the type of equipment and 
operational conditions. We in Congress have a responsibility to 
provide the necessary funding to repair and/or replace this 
equipment. Our depots and private industry also play a key role 
in this effort.
    In some cases, legacy equipment is no longer in production, 
which necessitates superior supply chain management to obtain 
obsolescent parts or the flexibility to substitute alternative 
equipment that is in production. Full reset will require a 
long-term plan that includes effective and efficient 
partnership between our depots and industry.
    The ultimate metric of success is whether or not we are 
getting the proper equipment into the hands of our brave 
warfighters in time for them to train before they go into 
harm's way.
    Again, I want thank all of you for your service to our 
country. Thank you for being here and I look forward to your 
testimony.
    Thank you, Mr. Chairman.
    Mr. Ortiz. Today we have a panel of distinguished witnesses 
representing the Department of the Navy, who will address the 
Marine Corps and Navy reset program.
    Our witnesses are Lieutenant General Emerson Gardner, 
deputy commander for programs and resources in active Marine 
Corps, and Vice Admiral Jonathan Greenert, deputy chief of 
naval operations for integration of capabilities and resources.
    Without objection, both witnesses' prepared testimony will 
be accepted for the record.
    General Gardner, welcome. It is so good to see you again--
both of you. And I know you gave us a good briefing last week. 
But it is good to see you again, and thank you for the 
information that you gave us last week and the information that 
you are about to give us today.
    Please proceed with your opening remarks, General Gardner.

  STATEMENT OF LT. GEN. EMERSON N. GARDNER, JR., USMC, DEPUTY 
    COMMANDANT FOR PROGRAMS AND RESOURCES, U.S. MARINE CORPS

    General Gardner. Thank you, Chairman Ortiz, Chairman 
Taylor, Mr. Forbes, Ranking Member Bartlett, distinguished 
members. Thank you for the opportunity to discuss your Marine 
Corps' readiness, resources and our efforts to reset the force.
    As a Marine of 34 years and as a father of a Marine who 
served in Iraq in 2006, I want to thank you for your steady and 
generous support for our Corps. It has made a great difference 
in the lives of many young Marines and we appreciate it.
    For over five years, the Marine Corps has been involved in 
combat and combat support operations around the globe. Your 
deployed Marines are better trained, better equipped and better 
protected than ever before. Their readiness in the four 
measurement categories of maintenance, supply, training and 
personnel remains very high. We are committed to keeping it 
there, no matter what the changing circumstances. We will not 
compromise in the training and equipping of any of our forces 
going forward.
    Given our commitment to maintaining our deployed and 
deploying forces at the highest state of readiness possible, we 
have had to draw personnel and equipment from across the Corps 
to ensure that we have correctly weighted our main effort. This 
prioritization of personnel and equipment for forward-deployed 
units has caused the decline in readiness of our nondeployed 
units in those two areas.
    On the personnel side, an expansion of the Corps existing 
force structure is critical to meet the demands of today. But 
more importantly, it is vital for the Marine Corps of the 
future, if we are to remain the Nation's 911 force. We intend 
to grow from our current temporary end-strength of 180,000 to 
184,000 by the end of this fiscal year and add 5,000 Marines 
per year thereafter until we attain our goal of 202,000 by 
2011.
    We are initially funding this effort through a mix of 
baseline and supplemental appropriations, but we are eager to 
get these costs into our baseline budget as soon as possible. 
Our efforts to reset the force address the readiness deficit in 
our maritime preposition stocks and home stations that occurred 
as we increased the equipment density of the forward-deployed 
forces.
    Our current total reset estimate is now $13.7 billion. The 
Congress has already provided $10.2 billion toward that cost in 
fiscal year 2006 and 2007 supplementals and we thank you for 
that. The remaining costs to reset the force are spread over 
the next couple of years and will be contained in future 
requests.
    While timely provision of resources is critical, it is 
deliveries to the warfighters that actually improves readiness. 
We have been hampered by the need to replace lost items that 
are no longer in production and by limited industrial 
capacities. For example, although we lost our first light 
armored vehicle in April of 2003, the actual replacement of 
that vehicle will not be delivered until December 2007, four 
and a half years from the date of loss.
    As vehicles continue to be lost without replacement, 
readiness declines, and the billpayer is a nondeployed unit. 
Fortunately, the bulk of this lag time is now behind us and we 
are beginning to see a turnaround in equipment readiness.
    Our focus is on the Marines that are currently in harm's 
way. In 3 years, we have transformed from 100 percent soft-
skinned HMMWVs to level 2 armor to our current fleet of level 1 
up-armored HMMWVs. But now the enemy has adapted to our 
countermeasures and is attacking our best armored HMMWVs 
successfully with increasing regularity.
    Tactical vehicles with V-shaped hulls built from the ground 
up to counter improvised explosive devices are urgently needed. 
Known as mine resistant ambush protected vehicle, or MRAP, 
these vehicles are big, heavy and expensive.
    Because we have about 65 in Iraq now, we know that the 
payoff is great, however. Our experience is that the Marines in 
these vehicles have been four to five times safer than a Marine 
in an armored HMMWV. Based on this experience, we recently 
decided to replace our armored HMMWVs in theater on a one-for-
one basis with MRAPs. Our total requirement is now 3,700 MRAPs.
    The fiscal year 2007 bridge and supplemental funding 
request will procure just over 1,000 MRAPs for the Marine 
Corps. The additional 2,700 vehicles needed will cost $2.8 
billion.
    The Marine Corps is leading an aggressive Office of the 
Secretary of Defense (OSD) joint acquisition strategy for MRAPs 
and we believe that we can deliver these vehicles in quantity 
by late summer and complete the entire joint requirement of 
nearly 6,800 vehicles by the end of 2008.
    Thank you for your tremendous support, and I look forward 
to your questions.
    [The prepared statement of General Gardner can be found in 
the Appendix on page 34.]
    Mr. Ortiz. Admiral, whenever you are ready, sir.

STATEMENT OF VICE ADM. JONATHAN W. GREENERT, USN, DEPUTY CHIEF 
    OF NAVAL OPERATIONS FOR INTEGRATION OF CAPABILITIES AND 
                      RESOURCES, U.S. NAVY

    Admiral Greenert. Thank you very much, Chairman Ortiz, 
Chairman Taylor, Ranking Member Bartlett and Mr. Forbes, 
distinguished members of the Readiness and Seapower and 
Expeditionary Forces Subcommittees.
    It is my pleasure to appear before you to discuss the 
Navy's reset request, and I am honored to be here with my 
teammate, General Gardner.
    We are a maritime nation entering our sixth year of a 
global war on terror (GWOT). Navy continues to play a vital 
role in this war by deterring our enemies and supporting our 
friends and partners and by providing direct and indirect 
support to combat forces on the ground in Iraq and Afghanistan, 
and by leading the joint combined counter improvised explosive 
device (IED) task force, by leading the joint task forces in 
the Horn of Africa, Guantanamo Bay and Southeast Asia, and 
through commanding provisional reconstruction teams in 
Afghanistan.
    There are currently over 42,000 sailors deployed worldwide 
and over 12,000 of them are serving on the ground in Iraq, 
Afghanistan and throughout the Central Command area of 
responsibility. Navy support of these operations results in a 
higher tempo of operations than experienced in peacetime. This 
has resulted in a high turnaround ratio for some expeditionary 
forces, particularly our Navy construction force, our Seabees, 
and our explosive ordnance disposal teams.
    Moreover, the Seabees and the explosive ordnance disposal 
units deployed to Iraq and Afghanistan require the right 
equipment to do their mission, including improved self-
protection against IEDs. Ongoing operations in Iraq have 
required new vehicles to support our troops against an array of 
explosive devices that they encounter. MRAP vehicles have been 
developed to better withstand these threats and they are being 
outfitted and delivered to our Seabees.
    Additionally, traditional Seabee equipment deployed to the 
Central Command is wearing out on average 14 times faster than 
that experienced during peacetime usage. And some of the 
equipment, like generators, are wearing 40 times faster.
    Of particular concern is the effect combat operations is 
having on our tactical and expeditionary aircraft. Navy's 
legacy aircraft are showing significant wear from the increased 
combat-related operational tempo in Operation Iraqi Freedom 
(OIF) and Operation Enduring Freedom (OEF). And this increased 
OPTEMPO decreases the years of our legacy tactical aircraft 
beyond that predicted.
    A third of the Navy's legacy tactical air fleet is already 
operating over our design limits and the bulk of the fleet, the 
FA-18 CD Hornet, is consuming flight hours at a rate 30 percent 
greater than originally planned. This increase in flight hours 
is accelerating the expected service life of these aircraft, 
reducing anticipated years of service.
    Similarly, the EA-6B fleet is operating on average at a 120 
percent design expected life with an average aircraft age of 24 
years, although it was designed for 20-year life. Units of the 
P3 and EP3 fleets have exceeded fatigue, life expended limits 
and some are now being very closely monitored for continued 
operation. The average age of our P3 fleet is 27.5 years and 
the average age of our EP3 fleet is 33.5 years. Both are 
expected to last 30 years upon design.
    This all translates to greater operational costs, but for 
the long-term it translates to shorter life spans, and the 
potential for decreased future force structure. So Navy has 
worked to identify the cost to reset the force which result 
from this war on terror. Resetting the force replaces required 
capability for our sustained required operations with global 
reach and with persistent presence. These two unique attributes 
provide the influence, the dissuasion and the deterrence, both 
in our day-to-day operations and as a vital element of our 
Nation's strategic reserve.
    Navy's reset requests complies with the September 2006 
Office of Secretary of Defense directive and we will leverage 
technology wherever it makes sense. Determining reset is a 
dynamic process which is influenced by multiple factors to 
include the operational tempo, the environment and the tactical 
employment of the equipment.
    To accommodate this, we take assessment of our reset every 
six months, the last one completed in October 2006. This 
assessment provides us a point of reference and incorporates a 
three-year horizon to accomplish the reset, taking into account 
the time to authorize, appropriate and then execute and deliver 
the equipment.
    This reset, contained without our fiscal year 2007 
supplemental and 2008 GWOT requests, contains only those items 
that we can obligate in the year requested.
    Past supplemental funding has mitigated Navy's operational 
costs but has been focused more on our costs of war than on 
resetting the force. Our reset requirements for our equipment 
will continue to grow more extensively than originally 
anticipated as long as our high operational tempo (OPTEMPO) 
continues.
    Replace equipment and aircraft are essential to preclude 
near- to mid-term capability and capacity gaps. Your timely 
attention to our request would be appreciated. We thank you 
very much for your past support to our Navy and on behalf of 
our sailors, I thank you for your consideration of our reset 
requests. I look forward to your questions.
    Thank you, sir.
    [The prepared statement of Admiral Greenert can be found in 
the Appendix on page 41.]
    Mr. Ortiz. Thank you so much for both of your opening 
statements.
    Now, let me yield to the chairman of the Seapower 
Subcommittee to see if he has any questions.
    Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Chairman.
    General, with regard to the MRAP, I am just trying to get a 
handle on the dollars. A quick look would have me think that 
you have had money in hand to build about 1,200 of them 
roughly. So to get to the 4,000, how much more do you need?
    General Gardner. Sir, we need an additional $2.8 billion 
for the 2,700 more that we have asked for. Our original request 
was for 1,022 vehicles. Congress appropriated $600 million 
toward that in the Title IX and we have asked for an additional 
approximately $500 million in the full supp. So we would need 
an additional $2.8 billion above that number. If we receive 
that funding, then we will fill our requirement for 3,700.
    The Army has also requested as a requirement for 2,500 
vehicles and the Navy has a requirement for 538. That adds up 
to about 6,730 total vehicles.
    Mr. Taylor. You are in a competition now with nine 
different variants with down selects sometime in the early 
summer?
    General Gardner. Sir, they have issued contracts to nine 
different vendors to provide four vehicles each. Two of the 
four would be for destructive testing, two for road testing. As 
each vendor produces these test vehicles, and they must do it 
within 60 days, and they prove to meet the requirements, as the 
companies say that they will, they will be issued production 
contracts to the extent that they are able to fill the 
requirements.
    So those nine contracts have been issued with regard to 
test contracts and we are already getting underway, as 
companies will be issued production contracts as they qualify. 
So some of these companies are more mature in their vehicles, 
they have already demonstrated capability to produce the 
vehicles. They will be issued production contracts earlier.
    Mr. Taylor. I guess what I am curious on, having seen the 
explosive growth of the Littoral Combat Ship (LCS) and some 
other things, you have nine vendors, you are going to down 
select this summer.
    What happens if a vehicle you like comes in at $1.1 million 
instead of $900,000? How do you react to that, given that the 
requirement, hopefully, will not change, that every vehicle 
that leaves the wire will be properly protected? So how do you 
come up with the difference in dollars? How do you get that 
message to Congress in a timely manner and get the dollars that 
you need?
    Because, again, the Marine Corps is on record saying 
January 1. I am pleased that you are sticking your neck out to 
set that date, but I don't want to see anything happens that 
keeps that from becoming a reality, starting with lack of 
funding.
    So how would you react to that if the one you really want 
comes in a little bit more expensive than what you anticipated?
    General Gardner. Sir, our requirement is firm and if we 
don't have the resources to fill the requirement, we will seek 
more resources. We will take the immediate action required, 
reprogramming funds as we are able to do that, and then seek 
resources to replace those funds.
    Mr. Taylor. I guess I am curious. The admiral made a point. 
Every trip to Iraq, I am absolutely overwhelmed by how many 
generators are buzzing in the background and looking at the 
tents, and everywhere you are seeing very expensive stuff 
taking place to give the troops the quality of life that they 
deserve. But it has all got a price tag, and all those things 
wear out, and all those things have to be replaced.
    So where do you find the funds for that reset, given that 
there are so many other needs going on simultaneously?
    General Gardner. Well, the Congress appropriated already 
$600 million for the first vehicles, almost about 800 vehicles-
worth, probably, and our systems commander, General Brogan, is 
already working with that money. We have initiated a 
reprogramming action to provide him another $400 million so 
that he is not cash-flow limited in getting these production 
contracts on contract.
    We see this 3,700 requirement as firm and we are seeking 
resources for that and have asked for that additional $2.8 
billion. We are able to cash flow, in this part of the year, 
for example, personnel costs that we know we are counting on 
the Congress to provide the 2007 supp here by this spring. And 
at that time, then we can replenish those funds.
    Mr. Taylor. General, well, Congress always seems to be a 
day late on this. I felt like we were a day late on up-armor. I 
felt like we were a day late on small arms protective inserts 
(SAPI) plates. I felt like we were a day late on jammers. And I 
have to confess, I personally felt a day late on the V-bottom 
vehicles when the retired colonel from the Army Liaison Office 
stopped by about a year ago and showed me a South African 
vehicle, explaining how that had evolved from the mine threat. 
And, you know, that was 10 years ago, maybe 20 years ago, that 
the South Africans went to this, that the Russians went to 
this.
    What are we missing now? What should we be looking at in 
addition to this so that kids don't die needlessly?
    General Gardner. Sir, we need to move out aggressively with 
this short-term solution, which is the MRAP, and we are asking 
for that money. If we receive that money in 2007, we will be 
able to obligate and execute it in 2007 and deliver those 
vehicles during fiscal year 2008, we believe.
    We are also aggressively in the President's budget for 
2008, we have robustly funded the research and development for 
the joint light tactical vehicle (JLTV), which we see as the 
next iteration. Whereas the MRAP is more or less an off-the-
shelf buy for an immediate requirement, the joint light 
tactical vehicle, we are working in conjunction with the Army. 
This is a vehicle which we will design from the ground up to 
deal with the threats of the future.
    So we need to keep that on track, aggressively fund that 
research and development (R&D), so we get a vehicle that will 
take advantage of the technologies of the future, have better 
fuel efficiency, have lighter armor and hopefully be less 
expensive.
    But we are buying the MRAP right now. It is not the ideal 
vehicle for the Marine Corps. We are not in any way 
constraining the buy of it so that it will fit on ships or any 
of that or our expeditionary aspects. We are buying it for the 
war in Iraq and this kind of a threat, but we want to fund the 
development of the JLTV, which is what we see will be able to 
deal with this kind of insurgency in the future and future 
threats and be more suited to our expeditionary nature.
    Mr. Taylor. What percentage of the funds for this program 
are coming from the Army? And to what extent have they shown up 
or not shown up with those funds in order for everything to 
work?
    General Gardner. To date, we have put in $600 million of 
the Title IX funds. I believe the Army has a reprogramming 
action of $70 million to get theirs going. And I believe they 
have requested additional funds to finance their part of the 
requirement.
    Mr. Taylor. Is there any delay in the acquisition caused by 
the Army's slowness in paying?
    General Gardner. I am probably not the one to speak to that 
delay right now. I know that we are, like I said, he had $600 
million to start out with. We are moving out on an additional 
$400 million reprogramming so that he will not be delayed. I am 
not aware of any delays at this time.
    Mr. Taylor. Thank you, General.
    Thank you, Mr. Chairman.
    Mr. Ortiz. Mr. Forbes.
    Mr. Forbes. Thank you, Mr. Chairman.
    And thank you, Admiral, for being here, and General.
    General, I would like to just follow up a little bit on 
some of Mr. Taylor's questions, if I could, regarding the MRAP. 
I was looking at your written testimony, and one of the 
statements that is in it is we were buying all of the small-
production capacity currently available. And I know in any kind 
of reset policy, we are looking at, really, two major 
components: the procurement aspect of it and also the 
maintenance aspect of it down the road.
    When we look at the nine companies that we are trying to 
look to to produce the four MRAP test vehicles each, can you 
tell me what happens after those vehicles are produced? In 
other words, what are our requirements?
    Because I know it says here, it says, ``To meet force 
protection and performance standards.'' What will you then do? 
Will you pick two companies, three companies, to produce these? 
Will you pick one vehicle and then go back to each of the 
companies and say, ``Can you produce this for X number of 
dollars?'' How will you make those selections?
    General Gardner. Well, this is a large program. I believe 
it is going to be an Acquisition Category (ACAT) 1D programs 
will be managed at the OSD level. The assistant secretary of 
the Navy for research, development and acquisition, Dr. Etter, 
I believe, will be the acquisition executive over the executive 
agents responsible for that. And the joint program executive 
officer will be our systems command officer, General Brogan.
    What he has done is, he has nine candidates on a table and 
they have been asked to produce something that can demonstrate 
they have a vehicle that will do what they claim it will do. 
When they see the results of that, and they actually see what 
they have, I think they will put together a strategy of what 
they actually put into large production, if they are going to 
have multiple companies producing the same vehicle or each 
company producing their own vehicle and they are common enough 
to be dealt with.
    The candidate vehicles that have been submitted so far 
appear to have a great deal of commonality among them. It is 
more along the lines of, we are buying contract logistic 
support--that is part of the anticipated contract for each of 
these vehicles--so that they would be maintained for about a 
two-year period, so that we are buying the vehicle. We are also 
buying the maintenance in terms of field representatives to 
keep them in an up status. That way we do not have to go 
through the time of having to train Marines and providing a 
supply chain. That supply chain comes with it.
    These are off-the-shelf vehicles, so these capabilities 
exist in these industries. We think there is sufficient 
commonality among these vehicles that this will be a viable 
program, but in the end it is up to Dr. Etter and her program 
executive officer (PEO), General Brogan, to decide exactly how 
many companies and exactly the strategy they are going to 
pursue.
    Mr. Forbes. So at this particular point in time, we 
basically have nine companies that will be competing. It has 
just been my practice that unless some of those companies are 
colluding or working with each other, you could get quite a bit 
of differentiation between those vehicles.
    And my big concern is that if you pick door number two, 
which you suggested, where we may have multiple companies 
producing different vehicles so that we can turn production out 
in a greater capacity, how are we going to ensure the 
interoperability?
    Because when you are in-theater and you are in a situation 
like that, despite the fact you may have the contract for the 
contracts for the maintenance, it is still sometimes, you know, 
our men and women in uniform who are going to have to do that 
maintenance out in the field.
    What concerns me is we have a million-dollar vehicle out 
there and for some reason we can't do the maintenance on it. So 
just the two questions I would have is, one, how will we ensure 
the interoperability of those vehicles out there?
    And the second thing, even how do we ensure that the 
companies are going to be able to continue to perform their 
maintenance requirements and get the parts and all that we need 
to be out there to service them, if you have multiple companies 
that are doing it?
    General Gardner. I think it is up to General Brogan to 
ensure that the production contracts ensure that the companies 
do what they say they are going to do and that we are going to 
get what we actually pay for.
    I think that the commonality of vehicles, the candidate 
vehicles, something like 15 different vehicles submitted by the 
9 companies, there is a lot of commonality among them. I think 
it is more--some of these things are more the difference 
between a Ford and a Chevrolet than it is the difference 
between a bicycle and a dump truck, or something. So it is not 
that far apart.
    It is almost as if--and I think our vision is--you will 
have, like, a certified mechanic who comes into a garage, and 
he can change the air filter or deal with the basic maintenance 
on any of them. It might be a little bit different air filter, 
but there are plenty of air filters available to be able to go 
ahead and do it and change it.
    Mr. Forbes. Thank you, Mr. Chairman.
    Mr. Ortiz. Mr. Bartlett.
    Mr. Bartlett. Thank you very much.
    I want to thank you for the generous amount of time you 
spent with us in a briefing on this. We spent quite a long 
while with questions and discussion in quite some detail. So 
that will necessitate fewer questions at this open hearing, 
because we had the satisfaction of this long discussion with 
you then.
    What percent of the production base will have to be 
employed for the MRAP to meet your production schedule? Do you 
have that figure?
    General Gardner. Sir, I don't----
    Mr. Bartlett. Our anticipation was it was a pretty high 
percentage.
    General Gardner. Of the number of that kind of vehicle that 
are produced in the country, what percentage of that would be 
dedicated to producing this number?
    Mr. Bartlett. What percent of the production capability of 
these nine companies that you let a contract to will you have 
to use in order to meet your production schedule? From our 
briefing, my understanding was that your anticipation was, or 
your hope was, that most of them would qualify?
    General Gardner. Yes, sir. We are hoping that most of these 
nine companies will qualify. I am very confident that we will 
have multiple companies qualify.
    As to the percentage of those particular companies, how 
much of this is their total capacity, I will have to come back 
to you with that.
    But we are looking for approximately 6,800 total vehicles 
through some number of the companies. Some subset of nine will 
be qualified. We believe that we will be able to generate 
hundreds of vehicles per month with that and that this will be 
well within the capacity of these companies to deliver.
    Mr. Bartlett. Obviously, in a different world, we would 
like to have them all made if not by the same company, at least 
to exactly the same specifications----
    General Gardner. Yes, sir.
    Mr. Bartlett [continuing]. So that their maintenance in the 
field would be easier. But we are now faced with a compromise 
between that and the reality that we need to get these to the 
troops as quickly as possible, because these are enormously 
more effective at protecting our troops than the flat-bottomed 
HMMWVs are.
    My understanding is that a couple of these companies have 
pretty much satisfied you that what they have proposed is 
workable and we are very shortly going to let contracts to 
those two companies to begin production.
    General Gardner. It is my understanding that some of these 
companies, they are quickly identifying those and they are 
going to start issuing production contracts as early as this 
week.
    Mr. Bartlett. My understanding is that, on their own dime, 
that a couple of them have produced these vehicles ahead of the 
contract that would have paid them for producing them, so that 
they are ready for tests now?
    General Gardner. That is correct, sir, and we want to go 
ahead and those that are ready and that have been invested in 
and are ready to go, we want to reward that good behavior and 
get them some money on production contracts to start generating 
vehicles, get that lead time behind us.
    Mr. Bartlett. Well, I was very impressed that working 
within the system, that you had exercised every option that you 
had to move this along as quickly as possible. I hope that the 
future goes as well as the progress up to this point, because 
you will have established an enviable track record that I hope 
others can adopt in procuring this equipment more quickly.
    From the time you started this, the procurement process, 
till you have some of these over there for our troops will be 
how long?
    General Gardner. There are 65 in country right now that we 
were buying some of the very larger variants, we are using for 
our explosive ordnance disposal teams, the category 3 MRAPs, 
about 65 in country. The Army has another number, about another 
140, in country. So there are already some out there.
    We had 1 vendor that was already producing about 25 of 
these a month, and that was what I was talking about. We are 
buying out their production until we get these larger capacity 
online. So we are cranking those out, continue to deliver those 
in theater, and hopefully we will get up to the point where we 
are starting to deliver hundreds a month.
    Mr. Bartlett. Well, we want to compliment you for your 
willingness to push the envelope and run some risks to get 
these to our troops quicker. You have set a very enviable track 
record, I think, and I hope that it can be adopted by others 
who may be a whole lot longer in getting them out there if they 
don't exploit the opportunities that you have found to push the 
envelope and you have flown pretty near the flame on some of 
these. Thank you very much for doing that.
    I yield back, Mr. Chairman.
    Mr. Ortiz. Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    And, General and Admiral, thank you for being here today.
    And in particular, General, the MRAP, I have had the 
opportunity to visit force protection and actually see the 
vehicles and the personnel who are constructing these are just 
so enthusiastic as to how they are helping our troops. They 
feel so good about it at every level. It is just an inspiration 
to see the people working to protect our country.
    General, how will the Marine Corps reset requirements 
change as a result of the additional personnel and equipment 
plus-up?
    General Gardner. Not substantially. The reset, the force 
requirement as we know it, that is to pay for sort of the 
bathtub of readiness that is behind us.
    Future costs that we are generation, attrition costs, for 
example, if we lose an aircraft in theater now, those are cost 
of war costs and we are calculating those. Our cost of war 
costs are estimated to be around $6.5 billion this year. And so 
as we submitted the 2008 supplemental request along with the 
2008 budget, I think we have about $6.3 billion in there for 
cost of war toward that kind of attrition.
    Mr. Wilson. And on another side, how and when will the 
Marine Corps Reserve units be reset?
    General Gardner. Marine Corps Reserve units are treated 
exactly the same as the regular units. We procure, Reserve 
equipment, using Procurement Marine Corps, PMC. It is the same 
dollar account, it is the same value--those Reserve battalions, 
for example, would be exactly the same table of equipment and 
use the same funding. So there is no difference.
    Mr. Wilson. Thank you very much.
    Admiral, I am very grateful about the Naval squadrons that 
have been located at the Beaufort Marine Air Station and they 
are very much appreciated in the community. Great citizens.
    As we look at fiscal year 2008, the Department of Navy 
budget request contains a total of 54 F18s of various models. 
Can the prime contractor for F18s meet a production capacity 
rate per year of 54 aircraft in fiscal year 2008? Is this 
amount within the contractual bounds of the current multi-year 
procurement program?
    Admiral Greenert. The short answer to your question is, 
yes, sir, Boeing can meet that production capacity of 54 
aircraft. In fact, they are not limited in production line up 
to 72 aircraft per year. But additional tooling above 54 would 
be required and that cost would have to be accommodated.
    To answer your question, though, yes, sir, that production 
line capacity of 54 can be accommodated.
    Mr. Wilson. In our community we appreciate the sound of 
freedom.
    Thank you very much.
    Mr. Ortiz. Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman.
    Admiral, in your testimony, on page four, you made sort of 
a comment about past supplemental funding requests which I 
guess were more focused on costs of war versus resetting the 
force.
    Admiral Greenert. Yes, sir.
    Mr. Courtney. And I don't want to read too much into that, 
but, I mean, did that happen just because we were at a 
different point in the war and that the utilization of 
equipment hadn't reached a certain level where reset was an 
issue? Or is it just because people chose not to ask for 
funding for resetting equipment?
    Admiral Greenert. Sir, I think it was threefold. One, we 
didn't understand as well the long-term implications. Two, the 
tempo of operations and the expanse of operations, particularly 
in our tactical aircraft, ramped up rather dramatically in the 
last three and a half years. But, third, it was Department 
policy to request only those costs of war needs directly 
associated with operations, per se, with aircraft ship 
operations, as opposed to looking to procure to reset.
    Mr. Courtney. So did something happen on that third point, 
where you said it was Department policy? There was a policy 
change?
    Admiral Greenert. Yes, sir.
    Mr. Courtney. What caused that to happen?
    Admiral Greenert. I would have to get that answer to be 
specific, to find out exactly, you know, what the tipping point 
may have been for a Department policy change. But I would tell 
you, as we watched it, a realization, perhaps, the length of 
operations and the fact that the impact of operations on 
equipment, capturing and quantifying that in a tangible enough 
manner that we could come to the Congress and ask for help in 
the procurement aspect of that.
    Mr. Courtney. And your testimony sort of goes on to 
describe where a failure to reset equipment resulted in the 
British armed forces, I guess, equipment just being totally 
unusable. Can you just talk about that a little bit in terms of 
what the consequences would be if we didn't do what you are 
requesting?
    Admiral Greenert. Well, I speak to that, or I write to 
that, in terms of not recognizing the longer-term impact on 
force structure. We have other tasks to the Nation around the 
globe to be prepared to deal with and to dissuade and deter 
and, if necessary, to act. And we need to be ready as the 
strategic reserve for the Nation.
    And that is the context, sir, of which I refer, to be sure 
that we have the appropriate force structure for beyond the 
near-term operations in Iraqi Freedom and Enduring Freedom.
    Mr. Courtney. Thank you, Mr. Chairman.
    Mr. Ortiz. Mr. Ellsworth.
    Mr. Ellsworth. Thank you, Mr. Chairman.
    I have a two-part question, but I think I can separate it, 
for the admiral and the general. I noticed in one of the 
documents--you know, we get a whole lot of documents up here--
that the research and development budget in this area has been 
cut, I believe it was eight or nine percent. It may not even be 
in today's documents.
    But, Admiral, my question to you, the first part of that, 
is are you satisfied? I know we always want more dollars, but 
are you satisfied with the research and development, 
particularly in that the roadside bombs and IEDs that are 
killing our soldiers seem to be on the increase. I would like 
to address the research and development dollars for the 
technology, to set those off, before we are on top of them and 
hopefully when they are being planted on the road would be our 
goal.
    And then to you, General, the Marine Corps has a funding 
shortfall of $2.8 billion for the MRAP program, and I would 
like to know if this funding shortfall was provided to you in 
fiscal year 2007, could we obligate that funding this year yet?
    Admiral Greenert. To answer your question, satisfaction on 
our research and development funding for defeat of IEDs, sir, I 
think I would have to defer to the joint IED defeat office on 
that.
    But from strictly a Navy perspective, we are satisfied with 
the response of our request for research and development. In 
this request, in the fiscal year 2008 GWOT request, we have $11 
million for continued research for defeating IEDs via 
electronic warfare (E.W.), predominantly through the aerial 
means and also to help our explosive ordnance disposal people.
    So we would appreciate your support in that regard, but we 
have been satisfied so far from the Navy, strictly, sir.
    Mr. Ellsworth. Thank you.
    And, General, before you continue on yours, I just wanted 
to let you know, Admiral, that Crane Naval Warfare Center is in 
my district, in Indiana, and those civilians are people who are 
working very hard to keep our troops safe, and I want to just 
publicly commend their work.
    Admiral Greenert. Thank you, sir.
    General Gardner. Sir, we are confident that if we were 
given the $2.8 billion in the 2007 supplemental, that we could 
in fact obligate it. That is procurement dollars. That is 
three-year dollars. We could obligate them and get them on 
contract this fiscal year.
    Mr. Ellsworth. Thank you.
    Mr. Chairman, I yield.
    Mr. Ortiz. Mr. McKeon, do you have any questions?
    Ms. Gillibrand.
    Mrs. Gillibrand. Thank you.
    I want to continue with Mr. Ellsworth's line of 
questioning, about research and development and production of 
the new equipment that we really need done to make sure we have 
the readiness that is required.
    Do you believe that the industrial base can meet the demand 
that the Marine Corps has for maintenance and new production 
right now?
    General Gardner. I am sorry. For the production of MRAP, 
vehicles, ma'am? Is that what you mean?
    Yes, ma'am, we believe so, and that will be part of this 
qualifying process, that the vendors can in fact produce what 
they claim to produce that we are going to pay them for.
    Mrs. Gillibrand. And in terms of production of other 
supplies, do you believe that the depots are currently 
operating at full capacity?
    General Gardner. Our depot operates--we have a full eight-
hour shift. Our main depot at Albany, for example, a full 8-
hour shift, and some areas are at 12-hour shifts. So the way 
that is estimated is 143 percent of a full 8-hour shift week.
    So we normally figure 2 shifts would be 100 percent, so you 
could say that another way of looking at it would be about 70 
percent of capacity.
    We have no backlog at our depot. Our primary limitation on 
the through-put of our depot is the items available to put 
through there. We have not had the benefit of having enough 
vehicles to supply the deployed forces and have some in depot 
maintenance to do that.
    As we build up and as deliveries of these vehicles and 
other critical items takes place, we will have enough then to 
have a float to be able to do that. But, to date, we haven't 
had that. We are striving to establish that.
    There is a lot of friction in getting this done. We have to 
get the vehicles from the frontline units. We have to give them 
something to replace what they have. And then you have to get 
all those units to Al Taqaddum, which is our primary logistics 
hub there, and you have to get them from Al Taqaddum down to 
Kuwait, onto a ship, back to the United States, and then 
reverse the process. That process takes about 260 days by the 
time you count all that transit and the choke points.
    And remember that Al Taqaddum is in Al Anbar province, up 
there in the eastern portion where we are, and you have to--
that is a difficult transit and you have to group the vehicles 
and the parts and everything to get them down to Kuwait. And 
that actually becomes one of the larger choke points, is the 
movement from there down to Kuwait.
    Mrs. Gillibrand. Thank you.
    Can I also move to a different area that I have concerns 
about. In your testimony that you submitted, you talked about 
an increase in end-strength and I agree wholeheartedly that our 
number one asset is our Marines. But I am concerned about being 
able to have sufficient recruitment to meet the end-strength 
needs that you have designated.
    Do you foresee any issues there or do you think that you 
are on target to have the end-strength that you have planned 
for?
    General Gardner. Achieving the end-strength gains will be a 
challenge, but we can do that. We are going to do that through 
two means; by recruiting young Marines to come in, providing 
those incentives and doing that. Our recruit command has done 
well in that. But it is also retention. The Marine Corps brings 
in about 39,000 Americans each year and turns them into 
Marines. We also release from active duty about 39,000 Marines.
    Of that 39,000 Marines a year, about 20,000 are issued a 
re-enlistment code. It means that we would like to re-enlist 
them if we had a place for them and if they desire to do so. 
That means since 9/11 we have released from active duty about 
100,000 Marines that we would love to have re-enlist if we had 
a place for them and if they had an opportunity.
    Now, some of those, they didn't re-enlist because they 
didn't want to at that time. Some of them didn't re-enlist 
because we did not have what we call boat space for them. So 
our commandant has now issued a call to arms and is going back 
after them.
    You can see by those numbers, it doesn't take a large 
percentage of those to come back on and that is a significant 
number of trained, experienced Marines.
    So it is an aggressive plan that we have to get to 202,000 
by 2011, but we think that we can do it.
    Mrs. Gillibrand. Thank you.
    My last question is special operations forces (SOF), for 
both of you. That is something that many of us believe is the 
key to being able to fight sufficiently the war on terror, so 
that we can find these terrorist cells and have the capacity 
to, you know, destroy them at their early stages.
    What is your plan for your special operations forces, in 
terms of growth, and what are your objectives over the next 
five years?
    General Gardner. We are the newest component to the special 
operations command. We established our Marines special 
operations command component just last year and they are still 
standing up out of Camp Lejeune, commanded by Major General 
Hejlik.
    But two primary elements or aspects of this, they have a 
foreign military training unit, and they have teams out and 
actually executing Special Operations Command (SOCOM) missions 
now.
    The other aspect are Marines special operations companies, 
and the first Marines special operations company is already 
deployed with its first Marine expeditionary unit and is 
already deployed and is now on its way to Afghanistan.
    So we are past our initial operating capability and moving 
toward full operational capability of our Marine special 
operations by the end of 2008.
    Admiral Greenert. Our support for special operations is 
predominantly in the form of our SEALS, which we organize, 
train and equip and provide for the special operations command.
    I will tell you, ma'am, that our SEALS do a wonderful job. 
We are very proud of them. They are very difficult to retain, 
because they are high demand outside the service and they are a 
challenge to recruit, and it remains one of our predominant 
challenges in recruiting today.
    We are doing okay, but it is near the very top of our 
recruiting challenges.
    Our support for the SOF is also in the form of some of our 
core capabilities, which can reach out: explosive ordnance 
disposal units providing IED support and embedded with the 
Special Forces units and some of our construction folks as 
well, our Seabees, will on occasion embed with special 
operating forces. So those are our predominant support and 
challenges, ma'am.
    Mrs. Gillibrand. Thank you.
    Mr. Ortiz. Chairman Abercrombie.
    Mr. Abercrombie. Does anybody else need to be deferred to?
    Mr. Ortiz. I think that everybody has asked a question.
    Mr. Abercrombie. All right.
    Mr. Ortiz. I think that that briefing we had the other day 
really helped us to understand.
    Chairman Taylor, he wants to make sure absolutely that you 
are the last one.
    Mr. Abercrombie. I regret I wasn't here earlier.
    Mr. Chairman, did you go through our activities over the 
last couple of days in this hearing yet?
    Mr. Ortiz. Which?
    Mr. Abercrombie. At the depots?
    Mr. Ortiz. No, we haven't yet. You might want to touch on 
that.
    Mr. Abercrombie. Is it okay if I pursue that for a moment 
in this context?
    Mr. Ortiz. Go right ahead. Yes.
    Mr. Abercrombie. Thank you very much.
    Over the weekend, under the chairman's leadership, several 
of us had the opportunity to go to Corpus Christi to the depot 
and to Anniston, to the depot there, and see the excellent work 
undertaken there.
    The difficulty I have with what has being presented here is 
trying to reconcile the various budgets that are now before us. 
We have the continuing resolution, which presumably will be 
voted favorably upon in the next two days. We have the 
presentation of the budget for the 2008 fiscal year. We have 
the supplementary budget for the present fiscal year. We have 
proposals, including that from the Army for further 
supplementary proposals, supplementary budgets. And then we 
have the projection of the Administration, of the Bush 
Administration, with respect to 2009 and further on.
    In the context of those budgets that I have just mentioned 
that are actually before us in one form or another, and the 
projections of the Administration and the Pentagon for 2009 and 
beyond, in which the number which jumped out at me was that the 
expenditures in Iraq would be around $50 billion, I can't 
reconcile what you are testifying to here today and the reset 
requirements in terms of the budgetary provisions that we are 
expected to make with regard to the supplementals, next year's 
budget, et cetera.
    You are familiar with the $50 billion projection, General?
    General Gardner. It was my understand, sir, that that $50 
billion was a Title IX type appropriation.
    Mr. Abercrombie. A so-called placeholder.
    General Gardner. Yes, sir.
    Mr. Abercrombie. Yes, I am under no illusion that that was 
the final number. But you see the dilemma we are then placed 
in.
    Because we have to recommend to the Appropriations 
Committee, among other things that we do in the Defense 
Authorization Bill, what it is that we think should be done in 
terms of policy. And Mr. Murtha has made it clear to us as 
subcommittee chairs as well as members of the overall committee 
that he is not only willing to listen to but anxious to hear 
from us as to what our recommendations are and what the 
rationale is.
    The difficulty I have right now is aside from certain 
specific dialogue that has taken place with regard to 
individual items, if you will, like up-armored HMMWVs and the 
MRAPs, et cetera, I still can't quite figure out what it is 
that makes you whole or what it is that we need to do in order 
to get your people, the people to whom you feel direct 
responsibility, up into the highest level of readiness with 
regard to equipment and training.
    Is there something that you can do to enlighten me as to 
what those exact numbers are in terms of the budgets that are 
before us?
    General Gardner. Sir, maybe I can help year by year.
    In fiscal year 2007, we have submitted our 2007 
supplemental. We need that funding and we can execute the other 
$2.8 billion that we need for the rest of those MRAPs. The 
Congress gave us that in the spring.
    Mr. Abercrombie. Out of the $17 billion? Is that what you 
are talking about?
    General Gardner. Sir, we have identified a requirement of 
3,700 MRAPs. We have formally requested funding for about 
1,022; a 2,700 difference, which is a new requirement, which is 
not in those requests. That additional $2.8 billion is what we 
need added to fully fill any----
    Mr. Abercrombie [continuing]. The President's budget of 
2008 and what was submitted in the 2008 GWOT will fill our 
requirements as we are able to execute them within 2008. In 
2009, the baseline budget for the Marine Corps for the first 
time will fully fund our personnel cost within the baseline. It 
depends on what assumptions are made about the war in 2009. We 
have been averaging about $6.3 billion for cost of war.
    So if the tempo of the war is as it is this year, and we 
make that same assumption in 2008 and we make that same 
assumption in 2009, it will be another $6.3 billion will be 
needed for the cost of war that is not in the baseline.
    So the baseline budget with regard to the reset, there are 
some items in reset the force that we cannot yet obligate and 
we would not ask for money because we cannot execute it. For 
example, there are a number of helicopters that have been 
destroyed. For example, we cannot put them all on budget over 
and above the capacity of where it is. So we need to buy some 
of those in the out years.
    Some of the reset the force estimate by the definition 
given to us by the Office of the Secretary of Defense, is to 2 
years worth of depot maintenance, so that is about $500 million 
for green dollar depot maintenance and about $400 million for 
blue. So depending on what assumptions you make on the reset, 
if you assume that the--it is about a billion dollars per year 
for depot maintenance for two years.
    Now, we believe that if the war were to end at some point 
in time and you were to make an assessment of all the gear over 
there and if you were to assume, for example, that you could 
only responsibly restore 50 percent of it, that that would cost 
and would take more work than we could accomplish in 2 years. 
So by that time, you would have to ask for an increase to your 
baseline budget to carryout that.
    So for example if there was, let us say there is about $4 
billion worth of depot maintenance work that needs to be done 
on the equipment on Iraq. Once the war in Iraq is over, if we 
decide that we are going to actually do that $4 billion worth 
of work, then if you can do $800 million worth of work, that 
would take you 5 years worth of maintenance to do that.
    Mr. Abercrombie. This is my final point. Is the present 
projection that you have taking into account what they are 
capable of doing, say, in Corpus Christi, with regard to 
helicopters right now? I grant you, you are not in the Army, 
but I presume you are working with them.
    General Gardner. We are working with the Army to 
facilitate----
    Mr. Abercrombie. Is my question clear? Because I am a 
little--not confused, but concerned that there is a 
coordination going on between what the depots are capable of in 
the context of repair and refurbishing and being able to put 
the, say, helicopters back on the line. And the connection of 
that to the various budgets that are now before us.
    General Gardner. Our reset request includes two years worth 
of depot maintenance. I personally believe----
    Mr. Abercrombie [continuing]. Does it take into account 
that the depot, say, at Corpus Christi, will be turning out X 
number of usable helicopters? Or that Anniston is turning out X 
number of fighting vehicles, et cetera?
    General Gardner. The issue for us is--yes, sir. I believe 
that those numbers, wherever that work will be done, I believe 
that is accounted for in that dollar estimate.
    Our primary limitation is actually having the material to 
induct into it without--if we have 30 to 40 percent of our 
equipment in theater, we cannot--even if we had all the depot 
capacity that you could imagine, we wouldn't want to put 40 
percent of our equipment in a depot all at once. We would want 
to induct it over----
    Mr. Abercrombie. Okay. Last thing. I neglected to ask, does 
this also take into account what you are able to do in theater? 
Because I for one was impressed with the capacity of these 
teams at the depots to deploy into theater to do--I am saying 
repair work. It is a lot more than that. But you get my point.
    General Gardner. Yes, sir. We are taking full advantage of 
everything in theater because of the difficulty to move things 
out of theater, which I earlier described.
    Mr. Abercrombie. Okay.
    Thank you, Mr. Chairman.
    Mr. Ortiz. Thank you.
    I am glad that my good friend brought the point about 
Corpus Christi. One of the problems that we had, because we had 
to revert back to the continuing resolution (C.R.), we had 
something like $10 million or $15 million to repair the rotor 
blades. Well, they cannot repair the rotor blades that they 
will need to repair because they don't have the equipment. You 
know, we have lost six helicopters.
    Well, because of the C.R., we have to go back to the old 
budget. That was put up or down to 2011, 2012. We have two wars 
going on. You know, we need those helicopters. And if those 
helicopters don't have those rotor blades, they can't fly.
    I hope that you don't have the same problem that happened 
in Corpus Christi, where instead of turning out, let me say, I 
think it was 100 blades, rotor blades, a month, they are down 
to 30 or 40. And that causes a big problem.
    I just hope that you don't have that same problem, that 
because the C.R., we have to go back, we have to go to the old 
budget, and money that was included is not available. We don't 
want you to be in the same shape that they are in. You don't 
have any problem like that? With not only the helicopters, but 
any other equipment that you might have?
    General Gardner. Yes, sir. Sir, we are in the middle of a 
detailed assessment to try to estimate exactly what is the 
volume of work that is out there, to identify what are the 
constraints in the depot production process and what capital 
improvements need to be made to maximize the flow through it.
    So the example I had, where you had $4 billion worth of 
work, you can only do $500 million worth of work and that would 
take 8 years to do, that is unsatisfactory. So what does it 
take to actually maximize the production?
    So we are doing that, looking for results on that, to 
maximize the production so that when we do have the material 
available we can get it through the production process as 
quickly as possible.
    Mr. Ortiz. You don't have that problem, Admiral?
    Admiral Greenert. Sir, we have a similar problem with 
helicopters, but we work together with the Marine Corps, but 
with ships, when ships are on station longer, and what was an 
original depot plan, where the ships would be in the depot now 
has to be rescheduled and the workforce appropriately balanced, 
that is something that we work through. We have been doing 
these sorts of deployments for a number of years and so we are 
getting better at it. But that is our challenge, to be sure we 
can capture the additional work which will generally result 
from a longer time at sea and have the workforce in place at 
the right shipyard.
    Mr. Ortiz. This is my last question, and I am going to then 
yield to my good friend from Mississippi.
    Do we have enough capacity at the industrial base of the 
depot in case, you know, there is another conflict around the 
world? The reason I ask that, someone said one time that at any 
one given time, one-third of the world is asleep and the other 
two-thirds are planning to kill each other.
    We just want to be sure that we have the capacity at the 
industrial base, the depots, that is something escalates, that 
we have the surge capabilities, you know, to where we can 
expand the work that we have to do.
    General Gardner. Sir, we believe we have the capacity to do 
what is required now. And we are undertaking this assessment to 
ensure that we are going to have to do what is required, that 
we are going to have the capacity to do what is going to be 
required as we get equipment back from Iraq, whenever that is.
    But right now, the limitation is the availability of the 
equipment to induct. We don't have any spare up-armored HMMWVs 
to put in the process. What we have is over there. As quickly 
as they are delivered, we put them over there, and we are just 
keeping up with the attrition. Eventually we will get to the 
rate, hopefully with this strategy we are doing with MRAP, 
where we will actually have enough to create this float and we 
will put it through there.
    But we are just as concerned as the chairman is, that we 
have sufficient capacity, that we are doing the capital 
improvements to do that, and we are looking hard at that.
    Mr. Ortiz. Thank you.
    Mr. Taylor.
    Mr. Taylor. Admiral, in December the Navy was getting ready 
to transfer four coastal mine hunters to some of our allies and 
the chairman and myself and others were able to get a hold of 
the chief of naval operations (CNO) and put that on hold. At 
that time, it was said that, well, they have old engines and 
they need better electronics and we are going to replace them 
with the LCS.
    As anyone who can pick up a newspaper in this town knows, 
we have problems with the LCS. It is probably not going to be 
delivered on time. It sure as heck doesn't look like it is on 
budget.
    So given that the bad actors around the world, that their 
asymmetrical response to our smart weapons are things like 
IEDs, mines, and I would presume the logical extension of that 
would be mines at sea, be it someone in the Middle East, be it 
someone in the straits of Taiwan, off of Korea. It just strikes 
me as the next logical thing, particularly since we have 
suffered casualties with the Princeton and the Tripoli.
    Where in this budget request is it to fill that void of 
those four or to take the remaining coastal mine hunters that 
are in inventory and get them up to a readiness level that is 
acceptable to the Navy?
    Admiral Greenert. You mean the MHCs, sir, to be clear?
    Mr. Taylor. Yes, sir.
    Admiral Greenert. The capability of those particular mine 
hunters are best suited and were originally designed for 
searching mines predominantly a minefield, predominantly by 
perhaps submarines. So we are talking about a large minefield.
    The capability that they bring is limited and we feel can 
be replicated using MH53 helicopters combined with our MCM1 
mine class, which we worked to replace in the Middle East, 
which we moved to the Fifth Fleet just recently when we retired 
the four you discussed.
    So to answer your question, that is my short clip on the 
answer. We have funding in this budget to repair the mine ships 
to the extent that they are effected by the global war on 
terror and then, of course, in the base budget to sustain the 
mine capability we have. But those MHCs and the capability they 
bring are much less and different from what the LCS would 
bring. And I would tell you, sir, that in our view, the 
combination of the MH53 with the MCM1 class far and away 
exceeds what those MHCs would bring.
    Mr. Taylor. What if it happened today? What if you had an 
event in the Straits of Hormuz followed up by an event off of 
North Korea and coincidentally something off of Taiwan? How do 
you respond to that given the fact that, you know, in the 
general's testimony, it is taking us approximately 88 months to 
replace every helicopter that he loses in Iraq, that 
unfortunately we have lost several in the past couple of weeks.
    Is anyone thinking through these scenarios? We always seem 
to be playing catch-up. I happen to have been here when we 
played catch-up after the Princeton and the Tripoli. I am not 
convinced that could not happen again.
    Admiral Greenert. I believe I understand your question, 
sir.
    If I could, addressing Korea, our force posture in we call 
that the forward-deployed naval forces, takes into account the 
requirements necessary to meet the capability needs for that 
scenario, and one of that scenario might be mines and mine 
lanes. So we need to be vigilant to the threat.
    We do have the forces in theater as requested by the 
combatant commander to meet that mine requirement and that 
threat.
    With regard to the Straits of Hormuz, we recently moved two 
minesweepers of a greater capability, the MCM1 class, and 
again, combined with our MH53 helicopters, to be able to 
detect, to sweep and then to neutralize the mine threat. 
Focusing on keeping the straits open as opposed to cleaning all 
mines from a minefield, as requested by the combatant 
commander.
    Mr. Taylor. General, going back to your projected time to 
replace your helicopters, are you allowed within your budget to 
anticipate losses and budget for that in anticipation? Or are 
you always playing catch-up?
    If it takes 88 months to replace a helicopter, and 
unfortunately the trend seems to be going the wrong way as far 
as helicopter losses, at what point does that become a 
vulnerability to the troops on the ground?
    At what point do you start flying the remaining helicopters 
more than you should, longer than you should, or create a 
vulnerability where you can't respond to a situation, where you 
would need some helicopter support?
    General Gardner. We have not been forecasting attrition in 
our supplemental request. In our supplemental request contains 
requests to replace things that have already attrited. So there 
is a built-in delay from the time an aircraft is lost to when 
we request the funding to when we get the funding to when you 
actually produce the helicopter and then deliver it back out. 
That is the----
    Mr. Taylor. General, if I may, and I am not blaming you, I 
think this Pollyanna rosy scenario comes from the guys wearing 
suits, not the guys wearing uniforms, but since there has been 
now a record of years where things have not gone as well as we 
would have liked them to, why aren't you given the 
opportunity--and because some things take so long to replace--
why aren't you given the opportunity to budget for attrition?
    General Gardner. Sir, actually there was a policy change in 
this year's 2007 supplemental request that was alluded to by 
Admiral Greenert earlier, we were given guidance to include in 
our supplemental request a request to accelerate capabilities 
that we thought would be needed for the war on terrorism.
    So our total of $14.5 billion, I think, in the 2007 budget, 
$3 billion of that was to accelerate capabilities. In our 2008 
request, there is an $11.3 billion total supplemental request. 
Three-point-three billion dollars of that $11.3 billion is to 
accelerate capabilities and to grow the force, as we projected.
    So I think there was a policy change in the guidance and 
the supplementals that were submitted here. We are still not 
forecasting attrition, but what we are doing is we are keeping 
the production capacities, which have some attrition in there.
    What happened, like, for example, on our CH46, is we have 
lost a total of six CH46s since 9/11. We last bought a CH46 in 
1970. When we bought them, we did have some Highpoint aircraft, 
some attrition aircraft in there. But in the years since we 
bought those 400-some helicopters, we have attrited down to 
something on the order of 250 are left, which is well under the 
number of helicopters we need. So we have already used up that 
attrition.
    What needs to be done is to get our replacement aircraft, 
keep it on track and buy those attrition aircraft. So we have 
now stepped up the rate of buy of the MV22, which is replacing 
the CH46. We are buying 21 of those. And we have requested some 
more as part of this acceleration piece. And I mentioned for 
2008, to get up the rate even more, to get those on tap.
    That is where we are. So as I mentioned earlier, I think 
that we have gotten the bulk of this lag time behind us, 
because now these items are now in production. So now all that 
we are dealing with is the actual production lag time and we 
are not waiting to actually start production.
    Mr. Taylor. How many operational MV22s are there in the 
Marine Corps?
    General Gardner. There are three squadrons right now 
operating. One is training. We are looking for it to deploy in 
country this fall and there are two right behind them at about 
six months. Every six months we will be bringing a squadron 
online.
    So those squadrons right now have 10 aircraft each. So I 
think there are about 41 operation V22s out there, counting the 
training units, but there are 3 operational squadrons in the 
pipeline, and the first one deploys in theater this fall.
    Mr. Taylor. Just as a matter of curiosity, I know when 
times were less violent and we were only losing equipment to 
accidents, there was the mindset that we could transition from 
the 1970's-era platforms, the UH1, the 46s and 47s, to the 22, 
that we had some time to make that transition, that it was not 
necessary for the Marines to use something like a Blackhawk as 
in interim platform.
    I am curious, given the situation in Iraq, given the 
situation in Afghanistan, is that still the Marine Corps' line 
of thinking? Or has there been any discussion of possibly going 
to a Blackhawk as a replacement for the 1970's-era equipment 
that you are losing?
    General Gardner. To replace the 46, the MV22 is the way to 
go. They are in production. They are coming off the line. Like 
I said, we are already at 21 in our baseline budget and we are 
heading toward 30 per year until we have completed that buy-
out.
    The H1s would be probably the candidate to replace the 
Blackhawks. We have an H1 program, which is getting ready to go 
to a production decision. So now, whereas there might have been 
a time to do it differently, we are where we are with the H1 
replacement right now.
    Mr. Taylor. How do you find an H1? Do you get an old frame 
and rebuild it? Do they start from scratch? I am curious as to 
how this occurs.
    General Gardner. The replacement for the UH1N and the AH1W 
is the UH1Y, Yankee, and the AH1Z, Zulu. The Yankee Zulu 
program was originally supposed to be a rebuild program to take 
those old airframes, take what you could use off them, and put 
the new capabilities into them.
    We have since augmented that since the force is so heavily 
committed and we can't pull those assets out of theater so we 
can put them in the remanufacturing pipeline. So we are 
actually buying new airframes, which are built from the bottom 
up. We have done that with the Yankees and now we are beginning 
to do that and we have that in our supplemental request to do 
that for the Cobra as a replacement.
    Mr. Taylor. I was just passed a note about the grounding of 
MV22s last week. Can you give us an update on that program?
    General Gardner. The MV22 is one of the most heavily self-
tested programs in our programs because of its history. In one 
of the tests evaluations, it was discovered that one of the 
chips in the flight control management system--I might not have 
that terminology correct--was susceptible to cold temperatures 
in certain kinds of scenarios. So a red stripe, a grounding, 
was temporarily issued.
    It was evaluated that a bad chip was used. They are now 
replacing those chips. We already have 15 aircraft returned to 
service and they have a plan to return basically full up by the 
end of the month. So that is well on the way, and that is 
actually a success story in that this was not discovered 
through some kind of flaw. This was sort of a self test program 
on there. It is a tribute to the labs and the work that is 
always done and the scrutiny that is going on in this aircraft 
to ensure there aren't any issues.
    Mr. Taylor. Thank you, General.
    Thank you, Mr. Chairman.
    Mr. Ortiz. Do we have any other questions?
    If not, thank you so much for your testimony. I think that 
the briefing we had was very helpful. Thank you for your 
testimony and for what you do. I know there is a lot of 
sacrifices in our troops and the families as well.
    This hearing stands adjourned. Thank you, sirs.
    [Whereupon, at 4:30 p.m., the subcommittees were 
adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                           February 13, 2007

=======================================================================



              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           February 13, 2007

=======================================================================


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
                                  <all>

</pre></body></html>
